U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Wi-Lan, et al. v. Drew Hirshfeld, Acting Secretary of Commerce
for Intellectual and Director, United States Patent and Trademark
Office, S.Ct. No. 20-1261

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 8,
2021, and placed on the docket on March 11, 2021. The government’s response is due on April
12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1261
WI-LAN, INC., ET AL.
DREW HIRSHFELD, ACTING UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR, UNITED STATES PATENT AND
TRADEMARK OFFICE

RUTHANNE M. DEUTSCH
DEUTSCH HUNT PLLC
300 NEW JERSEY AVE. NW
SUITE 900
WASHINGTON, DC 20001
202-868-6915
RDEUTSCH@DEUTSCHHUNT.COM
DOUGLAS RON WILSON
ARMOND WILSON LLP
895 DOVE STREET
SUITE 300
NEWPORT BEACH, CA 92660
949-851-4779
DOUG.WILSON@ARMONDWILSON.COM

